        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
 

The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act for the Capital
Area Community Action Agency –
Agreed-Upon Procedures




OAS-RA-11-04                        February 2011
 

                                 Department of Energy
                                   Washington, DC 20585

                                       February 1, 2011


MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY

FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: "The Department of Energy's Weatherization
                         Assistance Program under the American Recovery and Reinvestment
                         Act for the Capital Area Community Action Agency – Agreed-Upon
                         Procedures"
                         Audit Report No.: OAS-RA-11-04

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an agreed-upon procedures review of the Department
of Energy's (Department) Weatherization Assistance Program for the Capital Area Community
Action Agency, located in Tallahassee, Florida under the American Recovery and Reinvestment
Act of 2009 (Recovery Act). The Office of Inspector General (OIG) engaged an independent
certified public accounting firm, Otis and Associates, PC, to perform the agreed-upon procedures
for Capital Area, a sub-recipient of the Department's Recovery Act Weatherization funding for
the State of Florida.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Assistance Program was implemented to reduce energy consumption for low-
income households through energy efficient upgrades. The State of Florida received $176
million in Weatherization Assistance Recovery Act grant funding, of which $7.5 million was
allocated to the Capital Area Community Action Agency. The Florida Department of
Community Affairs was responsible for administering Weatherization grants, including sub-
grants provided to the Capital Area. This grant provided more than a seventeen-fold increase in
funds available to Florida for weatherization over the amount authorized in Fiscal Year 2009.

OBSERVATIONS AND CONCLUSIONS

The review identified opportunities for the State and Capital Area Community Action Agency to
improve their administration of Recovery Act funds made available by the Department's
Weatherization Assistance Program. In particular, the review found that the State's guidelines
for verifying that homes had not been weatherized after September 30, 1994, were not consistent
with Department regulations. Specifically, the State required community action agencies such as
Capital Area Community Action Agency to search a centralized data system that could only be
searched by the applicant's social security number and not by the address of the home/unit to be
weatherized. Additionally, the data system only contained homes/units that had been
weatherized for the last ten years. Consequently, there was a risk that homes would be
improperly re-weatherized since searches would only identify (a) applicants who had received
weatherization assistance and not the weatherized home/units, and, (b) applicants who received
assistance since 2001.

The review also determined that one of the 30 weatherization assistance recipients tested did not
meet the income eligibility requirements for the Weatherization Program due to a calculation
error. The weatherization costs of $3,502 incurred for the unit were questioned and in response,
Capital Area reimbursed the State of Florida.

The attached agreed-upon procedures report makes recommendations to the State of Florida to
improve administration of the Department Weatherization Assistance Program grant.
The State of Florida and the Capital Area Community Action Agency provided responses that
expressed agreement with the recommendations and provided planned and ongoing actions to
address the issues identified. While these responses and planned corrective actions are
responsive to our recommendations, the Department needs to ensure that the planned actions are
taken.

RECOMMENDATIONS

As part of its responsibilities for managing the national Weatherization Program, we recommend
that the Acting Director, Weatherization Assistance and Intergovernmental Programs, Office of
Energy Efficiency and Renewable Energy:

   1.	 	 Ensure that appropriate action is taken by the State of Florida to improve administration
         of Recovery Act Weatherization Assistance Program funds.

We also recommend that the Contracting Officer:

   2.	 	 Resolve identified questioned costs.

MANAGEMENT COMMENTS

In discussions with the Office of Inspector General, Office of Energy Efficiency and Renewable
Energy management agreed to address the issues in this report as part of their ongoing
monitoring of the State of Florida's Weatherization Assistance Program and to promptly resolve
all questioned costs identified.

To its credit, the Florida Department of Community Affairs stated that it has directed all provider
agencies that do have Weatherization data pre-dating the State system to retain that data back to
1994 and to use it for purposes stated in the audit. Further, the State has directed its support
contractor to incorporate a query in the system to allow for checking of the dwelling address



                                                2


against the data sorted in the system in addition to the client check that already exists. The State
also responded that it had recovered the questioned costs from the Capital Area Community
Action Agency. Management comments from the Florida Department of Community Affairs are
included in the attached agreed-upon procedures report.

AGREED UPON PROCEDURES

The agreed-upon-procedures were performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants (AICPA) as well as those
additional standards contained in the Government Auditing Standards, issued by the Comptroller
General of the United States.

The OIG monitored the progress of the agreed-upon procedures performed and reviewed the
report and related documentation. Our review disclosed no instances where Otis and Associates,
PC, in all material aspects, did not comply with the attestation requirements. Otis and Associates
is responsible for the attached report dated January 26, 2011, and the conclusions expressed in
the report.

The agreed-upon procedures included obtaining an understanding of policies and procedures and
reviewing documentation from the Capital Area Community Action Agency. They also included
an analysis of inspection results, records of corrective actions, and re-inspections of completed
homes/units to ensure that any failures were properly corrected. Finally, an analysis of
associated cost data was performed to test the appropriateness of payments.

Attachment

cc:	 	Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
    Assistant Secretary for Energy Efficiency and Renewable Energy




                                                 3


     AGREED-UPON PROCEDURES REPORT 


                         OF



       Capital Area Community Action Agency



Weatherization Assistance Program Recovery Act Funds



                        ____

                 PERFORMED FOR

         U.S. DEPARTMENT OF ENERGY


        OFFICE OF INSPECTOR GENERAL





                     Prepared by



               Otis and Associates, PC


                                                    Table of Contents




Independent Accountant's Report on Applying Agreed-Upon Procedures ......................................... 1


SECTION I. Capital Area Community Action Agency's Weatherization Assistance Program ......... 2



SECTION II. Agreed-Upon Procedures Performed ........................................................................... 3


SECTION III. Classification of Findings ........................................................................................... 5


SECTION IV. Summary of Findings.................................................................................................. 6


SECTION V. Schedule of Findings .................................................................................................... 7


SECTION VI. State of Florida Department of Community Affairs Response................................. 10


                      INDEPENDENT ACCOUNTANT'S REPORT ON 

                        APPLYING AGREED-UPON PROCEDURES



To the Inspector General, Department of Energy:

We have performed the procedures, which were agreed to by the U. S. Department of Energy's
(Department) Office of Inspector General (Inspector General), solely to assist the Inspector
General in evaluating whether the Capital Area Community Action Agency, Inc. (Capital Area),
located in Tallahassee, Florida, was in compliance with relevant Federal requirements and
program guidelines in administering the Department's Weatherization Assistance Program funds
provided by the American Recovery and Reinvestment Act of 2009 (Recovery Act) for the
period July 28, 2009 through January 7, 2010. Capital Area's management is responsible for
compliance with relevant Federal requirements and program guidelines.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the U.S.
Government Accountability Office. The sufficiency of these procedures is solely the
responsibility of the Inspector General. Consequently, we make no representation regarding the
sufficiency of the procedures described below, either for the purpose for which this report has
been requested, or for any other purpose.

The agreed-upon procedures performed and our findings and recommendations are presented on
the following pages.

We were not engaged to, and did not conduct an examination, the objective of which would be
the expression of an opinion on Capital Area's compliance with relevant Federal requirements
and program guidelines used in administering the Department's Weatherization Assistance
Program funds provided by the Recovery Act. Accordingly, we do not express such an opinion.
Had we performed additional procedures, other matters might have come to our attention that
would have been reported to you.

This report is intended solely for the information and use of the Inspector General, and is not
intended to be and should not be used by anyone other than the specified party.




Otis & Associates, PC
January 26, 2011
    SECTION I. Capital Area Community Action Agency's Weatherization Assistance 

                                   Program



The Capital Area Community Action Agency, Inc. (Capital Area) was chartered in 1965 as a 501
(c) (3) charitable organization, to provide advocacy and services for the poor in Leon County in
the State of Florida. In the early 1980s, Capital Area became a provider agency for the Low
Income Home Energy Assistance Program (LIHEAP), Community Services Block Grant
(CSBG), Weatherization Assistance Program (Weatherization Program), and USDA
Commodities.

Under the Recovery Act, the State of Florida's Department of Community Affairs received an
allocation of approximately $176 million from the Department for the Weatherization Program,
of which about $7.5 million was allocated to the Capital Area. The purpose of the
Weatherization Program is to increase the energy efficiency of dwellings owned or occupied by
low-income persons, reduce their total expenditure on energy, and improve their health and
safety.




                                               2


                      SECTION II. Agreed-Upon Procedures Performed

1.		 We obtained an understanding of Capital Area's Weatherization Program management,
     administration of risks and mitigating controls through interviews with Capital Area's
     officials. We also reviewed available information, policies and procedures documentation,
     and conducted preliminary analyses of completed homes/units and associated cost data in
     order to substantiate sampling size and focus our testing, as outlined in the agreed-upon
     procedures (AUP) provided by the Inspector General.

2.		 Based on the AUP provided, we judgmentally selected a sample of thirty completed
     homes/units and their related cost transactions to be used for attribute and substantive testing.

3.		 We reviewed the sampled homes/units project files for documentation supporting their
     eligibility under the Program – including the income eligibility of the occupants. We
     attempted to determine whether the sampled homes/units had prior weatherization work
     performed that was completed after September 30, 1994. The Recovery Act indicates that
     dwelling units partially weatherized during the period September 30, 1975 to September 30,
     1994 may receive further financial assistance for weatherization. This indicates that homes
     weatherized after September 30, 1994 are not eligible for any further financial assistance for
     weatherization under the Recovery Act.

4.		 We reviewed the sampled home/unit project files for inspection results and records of
     corrective actions and re-inspections, to determine whether any noted failures were properly
     corrected. We also interviewed sampled home/unit occupants to confirm that weatherization
     work took place on the sampled homes/units, and that they were satisfied with the services.

5.		 For the sampled homes/units, we reviewed relevant cost data to determine whether:

       a)		 Costs incurred were allowable;

       b)		 Weatherization measures/materials were in compliance with standards established in
            10 CFR 440.18(d) (1) and 10 CFR 440 Appendix A; and whether stated unallowable
            items, such as freezer-only units and/or sub-standard weatherization
            measures/materials were not used.

6.		 Using Capital Area's vendor master list, employee master list, and the accounts payable
     disbursements file for the period under review, we:

       a)		 compared vendor names, per the disbursement's database, with those on the vendor
            master list and employee master list to determine whether there were unauthorized
            and/or ghost vendors, and/or same vendor/similar name (e.g., S.D. Baker, SD Baker,
            SDBaker) schemes;

       b)		 compared vendor names and addresses with employee names and addresses to
            determine whether there were employees disguised as vendors; and,


                                                  3

       c)		 applied data-mining algorithms to determine whether there were duplicate payments
            and split transaction payments (i.e. breaking one large invoice amount into two or
            more smaller invoices; and whether there were multiple payments for the same or
            similar invoice number from the same vendor using a similar name scheme).

7.		 We obtained a list of Recovery Act Weatherization Program reimbursements made to the
     Capital Area by the State of Florida, and reviewed all such reimbursements to determine
     whether each reimbursement was adequately supported by detailed documentation,
     reconciled to appropriate summary ledgers, and reviewed and approved by appropriate
     management personnel.

8.		 We inquired whether Capital Area purchased vehicles and equipment (with a value of $5,000
     or greater) using Recovery Act funds to determine whether the purchased vehicles and
     equipment were properly accounted for, inventoried, maintained, and used only for the
     authorized purposes. The master list obtained and reviewed indicated that there were no
     vehicles or major equipment purchased with Recovery Act funds. Although Capital Area did
     not purchase equipment that met the capitalization threshold of $5,000 each, we determined
     that it purchased three "Thermal Image Cameras" at a cost of $2,995 each and three "Peak
     Detector Power Meters" at a cost of $149.95 each. The total value of equipment purchased
     with Recovery Act funds is approximately $9,435.

9.		 We obtained and reviewed a sample of fifteen executed subcontract agreements between
     Capital Area and its subcontractors for Recovery Act Weatherization Program work to
     determine whether the agreements were properly executed by both parties, and whether the
     agreements provided for weekly certified payroll with corresponding approved Davis-Bacon
     wage rates. For five of the subcontracts selected, we reviewed a sample of nine weekly
     certified payrolls to determine whether the subcontractors paid the prevailing wages
     according to the provisions of the subcontract agreements.

10. We obtained a master list of program identification or job codes used by Capital Area to
    separately record transactions under the Recovery Act Weatherization Program, and those
    under other programs. We traced the codes to the sample detailed cost data to determine
    whether the Recovery Act Weatherization Program code was specifically used in recording
    and identifying weatherization transactions.

11. We selected the most recent quarterly performance progress report mandated by the
    Recovery Act that contained the "Number of Jobs Created and Saved" information. We
    reviewed relevant definitions and supporting calculation schedules to determine whether
    "Jobs Created and Saved" was consistently applied, and whether the number of "Jobs Created
    and Saved" was calculated accurately.

12. We evaluated whether the Capital Area calculated Savings to Investments Ratios (SIR) as
    required. If not, we determined the reason(s) for the non-compliance.




                                               4


                             SECTION III. Classification of Findings


DEFINITIONS

Each finding is categorized as either a Significant Deficiency, or Advisory Comment, as defined
below:

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
adversely affects the Capital Area's ability to initiate, authorize, record, process, or report data
reliably in accordance with the applicable criteria or framework such that there is more than a remote
likelihood that a misstatement of the subject matter that is more than inconsequential will not be
prevented or detected.

Advisory Comments

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Capital Area's ability to record, process, summarize, and
report data reliably.




                                                  5


                         SECTION IV. Summary of Findings


1. Historical Weatherized Homes Listing is Limited – Significant Deficiency

2. Weatherization Assistance Income Limits Exceeded – Advisory Comment




                                            6


                               SECTION V. Schedule of Findings

Finding 1 – Historical Weatherized Homes Listing is Limited – Significant Deficiency

Condition:

We found that the data collection system available to determine whether a home/unit was
weatherized after September 30, 1994 was limited. More specifically, the system provided by the
State of Florida for use by Capital Area could not search/query based on the addresses of the
homes/units weatherized and only contained homes/units completed for the last ten years based on
homeowners'/occupants' social security number. Hence, this database indicated whether the
applicant had received assistance in the last 10 years rather than whether the home/unit had been
weatherized since 1994, as required by Federal program regulation. The State of Florida's
Weatherization Assistance Program Procedures and Guidelines specifically states that the sub-
grantees – in this case Capital Area – should utilize the eGrants Social Security Number (last 4
digits) query to check for prior service to an applicant before providing services. The Procedures
also state that: (a) a dwelling should only receive weatherization services once during a 10 year
period; and, (b) with the prior approval of the State Office, an applicant can receive services a
second time for a re-weatherization. Capital Area was following the State of Florida guidelines and
using the eGrants system to test for re-weatherization eligibility. Although inspectors evaluated
existing weatherization and questioned homeowners and/or occupants to see if previous
weatherization service had been provided, the State did not require, and Capital Area did not
maintain, historical information of individual applicants and/or addresses of homes/units
weatherized in its service area that would provide assurance that ineligible homes were not
weatherized.

Under the Recovery Act and Departmental requirements, weatherization service providers are
required to ensure that homes/units weatherized using Weatherization Program funding after
September 30, 1994 do not receive additional weatherization assistance, unless the home/unit has
been damaged by fire, flood or act of God and repair or damage to weatherization materials is not
paid for by insurance. The Department of Energy's Office of Weatherization and Intergovernmental
Programs was very clear that grantees and sub-grantees are required to ensure that a "duplicate
application check" is performed for every address deemed eligible to determine that weatherization
services had not been provided after September 30, 1994 because the weatherization program is
aimed at weatherizing buildings, not individuals.

Cause:

Information showing the addresses of homes/units weatherized using the Department's
weatherization program funding since September 30, 1994 is not readily available. Although our
review focused on Capital Area, we determined that the State's guidelines were not in compliance
with Federal requirements in that they only required that the Agency review the State data system to
prevent the re-weatherizing of homes/units that received weatherization services funded by the
Department's Weatherization Program. This data system only contained homes/units completed for
the last ten years based on homeowners'/occupants' social security number, as discussed under the
condition for this finding.



                                                 7

Effect:

There is an increased risk that ineligible homes/units have been weatherized.

Recommendations:

In order to ensure that only eligible homes/units are weatherized in the State of Florida, we
recommend that:

1.1 	The State of Florida develop a methodology to provide assurance, in the future, that the
     homes/units being weatherized using Recovery Act funds were not weatherized using
     Departmental Weatherization Program funding after September 30, 1994.

Management's concurrence or non concurrence

The Department of Community Affairs concurred with our recommendation that it develop a
methodology to provide assurance that homes weatherized after September 30, 1994 were not re-
weatherized using Recovery Act funds.

In responding to an earlier version of this report, Capital Area stated that it is a subgrantee of the
State of Florida, and, therefore, required to follow the dictates in its contract with the State of
Florida. However, Capital Area indicated that if and when the State of Florida implements a new
methodology that is compliant with Federal requirements, it will adhere to revised contractual
requirements.

Corrective actions already taken or planned to be taken by the State of Florida

The Department of Community Affairs has directed all provider agencies that do have
Weatherization data pre-dating the state system to retain that data going back to 1994, and to use it
for purposes stated in the audit. Further, the Department's eGrants supporting contractor has been
directed to incorporate into the eGrants query system a feature to allow for checking of the dwelling
address against the data stored in the system in addition to the client check that already exists. This
enhancement should be completed by March 2011.




                                                    8


Finding 2 – Weatherization Assistance Income Limits Exceeded – Advisory Comment

Condition:

There was one instance in our sample of 30 out of 49 completed units where an applicant's income
exceeded the established income limits for weatherization program eligibility by $9,041. More
specifically, we found that the applicant's annual reported income of $30,701 exceeded the 200
percent poverty level of $21,660 by the amount noted. Under the Recovery Act Weatherization
Program, a dwelling unit shall be eligible for weatherization assistance if it is occupied by a family
unit whose income is at or below 200 percent of the poverty level as determined in accordance with
criteria established by the Director of the Office of Management and Budget. Therefore, a dwelling
unit was weatherized even though the home/unit was not occupied by an eligible applicant.

Cause:

While Capital Area does have a procedure that requires an independent review/verification of the
applicant income eligibility determination, the control in place was not effective in preventing or
detecting the noted error in a timely manner. In this one instance, Capital Area did not properly
calculate the applicant's total income when determining the applicant's eligibility for the
Weatherization Program. Although the applicant had provided the required information, Capital
Area miscalculated the total and erroneously determined the applicant as eligible through human
error.

Effect:

The weatherization costs of $3,502 incurred for the specific unit reviewed should be considered
questioned costs because the applicant was not eligible for weatherization services provided under
the Recovery Act.

Recommendations:

We recommend that the State of Florida's Department of Community Affairs:

2.1 Work with the Capital Area to determine whether the costs questioned should be disallowed.

Management's concurrence or non concurrence

Both Capital Area and the Department of Community Affairs concurred with our finding and
recommendation that they should determine whether costs questioned should be disallowed.

Corrective actions already taken or planned to be taken by the agency

Capital Area indicated that it has started working with the Department of Community Affairs to
resolve the issues related to the questioned costs based on each specific unit identified by the audit.
In addition, Capital Area indicated that it has instituted other procedures to ensure that ineligible
clients do not receive weatherization services. The Department of Community Affairs stated that it
has collected the disallowed costs from Capital Area.


                                                   9

                                                    STATE OF FLORIDA


DEPARTMENT OF COMMUNITY AFFAIRS 

             "Dedicated to making Florida a better place to call home"
    RICK SCOTT 

    Govemor 



                                                              January 5, 2011


Ms. Tara Lewis
U.S. Department of Energy
Office of Inspector General
1000 Independence Ave. SW
MS 5D-031, AT1N:IG-30
Washington, DC 20585

Re: 	   Audit Response to Draft Report on "The Department of Energy's Weatherization
        Assistance Program under the American Recovery and Reinvestment Act for the Capital
        Area Community Action Agency - Agreed Upon Procedures"

Dear Ms. Lewis:

       Enclosed is the response provided by the Florida Department of Community Affairs as
referenced above to the U.S. Department of Energy draft audit report developed by Otis and
Associates, PC.

      If you have any questions regarding the responses provided by the Florida Department of
Community Affairs, please contact Mr. Norm Gempel, Manager at 850-922-1846 or by email at
norm.gempel@dca.state.fl.us.

                                                              Sincerely,


                                                              K~~
                                                              Division of Housing and Community
                                                              Development

KR/pl

Enclosure

cc: Candace Fuller, Inspector General



        2555 SHUMARD OAK BOULEVARD.                                       TALLAHASSEE, FL 32399-2100
        850-488-8466 (p) • 850-921-0781 (t)                               • Website : www . dco . stofe.fl.us
         •   COMMUNITY !'tANNING 850-488-2356 {pi 850-488-33091') • flORIDA COMMUNmu TRUST 850-922-2207{p) 850-921-1747 (I)   •
                               • HOUSING AND COMMUNITY DEVELOPMENT 850-488-7956 Ip) 850-922-5623 If) •
Enclosure

                                              Draft Response

                                     SECTION V. Schedule of Findings

Finding 1- Historical Weatherized Homes Listing is Limited - Significant Deficiency

Management's concurrence or non concurrence:

The Department of Community Affairs (Department) concurs with the finding as described.

Corrective actions already taken or planned to be taken by the agency:

The earliest available information on clients receiving Weatherization date to approximately 2001, and
reside on the state eGrants database as stated in the audit. There are no existing records dating back to
1994 at Capital Area Community Action Agency, and none can therefore be created. However, the
Department has directed all provider agencies that do have Weatherization data pre-dating the state
system to retain that data back to 1994 and to use it for purposes stated in the audit. Further, the
Department's eGrants supporting contractor has been directed to incorporate into the eGrants query
system a feature to allo~ for checking of the dwelling address against the data stored in the system in
addition to the client check that already exists . This enhancement should be completed by rY\arch 2011.




Finding 2 - Weatherization Assistance Income Limits Exceeded - Advisory Comment

Management's concurrence or non concurrence:

The Department concurs with the finding as described.

Corrective actions already taken or planned to be taken by the agency:

The supporting documentation for the client referenced in the report was reviewed and the client was
determined not eligible for this program. Capital Area Community Action returned all disallowed costs to
the Department of Community Affairs.

State monitors will be sampling client files at the next monitoring visit.




                                                 Page 1 of 1
                                                           IG Report No. OAS-RA-11-04

                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1.		 What additional background information about the selection, scheduling, scope, or
     procedures of the inspection would have been helpful to the reader in understanding
     this report?

2.		 What additional information related to findings and recommendations could have
     been included in the report to assist management in implementing corrective actions?

3.		 What format, stylistic, or organizational changes might have made this report's
     overall message more clear to the reader?

4.		 What additional actions could the Office of Inspector General have taken on the
     issues discussed in this report which would have been helpful?

5.		 Please include your name and telephone number so that we may contact you should
     we have any questions about your comments.


Name 	                                         Date

Telephone		                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                            Office of Inspector General (IG-1)
                                  Department of Energy
                                 Washington, DC 20585

                               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
